               STATEMENT OF

               JOHN C. LAYTON

             INSPECTOR GENERAL

         U.S. DEPARTMENT OF ENERGY

                BEFORE THE

SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

          COMMITTEE ON COMMERCE

                MARCH 8, 1996




                        For Release on Delivery
                      Expected at 9:30 a.m. EST
                                  March 8, 1996
Mr. Chairman and members of the Subcommittee, I am here today to provide

testimony in response to the Chairman’s letter of invitation of March 1, 1996. In

that letter, you asked that I discuss a number of topics associated with concerns

that have been raised regarding travel by the Secretary of Energy and issues

relating to the Department’s Ombudsperson.



In November 1994, the Office of Inspector General issued its first report on

selected aspects of foreign travel. On December 20, 1994, I communicated

additional concerns to the Deputy Secretary on this matter. In that

correspondence, we concluded that, “. . . the Department should ensure that

all of its processes and procedures covering international travel have been

addressed before any additional trips are contemplated.” Subsequent to our

work, in May 1995, the U.S. General Accounting Office was asked by

Congressman Martin Hoke to conduct a review of Secretary O’Leary’s

international travel.



Our review in 1994 showed that controls over the acquisition and financing of

international air services needed strengthening. The Department had not

established a systematic and cost-effective process to acquire international air

services. The review also disclosed that the Department had not established a

systematic process for recouping flight costs from non-Federal passengers.
The Department’s December 19, 1994, written response to our audit, expressed

agreement with the findings and stated that a working group had been formed to

address the issues raised in the report. The response also stated that the

Department would reorganize its aircraft operations group, define roles and

responsibilities, and provide more effective support. Also in December 1994,

Departmental officials advised us that because of very tight time constraints, it

would be impossible to implement corrective actions before a trade mission to

China that was scheduled for February 1995. As a consequence, I wrote to the

Deputy Secretary, recommending that the Department’s processes for

international travel be addressed before any additional trips were taken.



On December 13, 1995, we initiated a review, in response to a written request

from the Secretary to, “. . . conduct a thorough examination of all Secretarial

foreign travel from 1993 to the present.” In addition, I was requested to examine

the establishment and filling of the position of the Departmental Ombudsperson.

Consequently, we are in the process of addressing the issues raised in the

Secretary’s request. Many of the matters raised in your letter of invitation will be

covered as part of this review. Therefore, I know you will understand our need to

complete this review before we provide our conclusions to the Subcommittee.
FOREIGN TRAVEL



In 1994, the Department sponsored a trip to India in July, and a second to

Pakistan in September. The Department stated that the intent of the trips was to

promote U.S. energy and environmental interests abroad and to assist U.S.

private sector participation in the emerging markets.



The flight to India was made on a Department of Defense aircraft at a reported

cost of $643,000. A representative of the Aircraft Operations Office felt that there

were less expensive alternatives to the use of the Department of Defense

aircraft. Therefore, the subsequent trip to Pakistan was on a private charter jet

arranged through a commercial broker at a cost of $415,000. These expenses

reflect the gross cost of obtaining the aircraft only. A compilation of total costs for

each of these trips is currently in process. Throughout our review, the

Department provided us with inconsistent lists of passengers for both trips. We

are in the process of documenting an accurate list of participants in each trip.



The November 1994 review showed that control over the acquisition and

financing of international air services needed strengthening. The Department

had not established a systematic and cost-effective process to acquire

international air services. During the review, Departmental procurement officials

expressed the view that they were uncomfortable with the process used to
acquire the charter aircraft for the Pakistan trip. They stated that they had little

experience in acquiring charter aircraft suitable for international travel, and that

because of pressing time constraints, they were unable to acquire the aircraft

services using full and open competition. We found that this was due, in part, to

a lack of clarity in the roles and responsibilities of the various parties involved in

this process. As a result, we suggested that formal procedures be implemented

for the acquisition of international air services which would include, as a

minimum, a clarification of the role of the participating Departmental elements.



The review also disclosed that the Department had not established a systematic

process for recouping flight costs from non-Federal passengers. According to

Departmental officials, both business and non-profit organization passengers on

the India and Pakistan flights should have paid for their air travel in advance.

But, we were informed that last minute changes in schedules and passenger

participation precluded this from occurring.



Further, non-Federal passengers are generally required to pay the full cost of

government-provided services. We estimated that in the case of the India trip, a

prorated share of the airfare would have been about $12,860. However, at the

time of our review, nearly four months after the trip, none of the non-Federal

passengers had been billed. We were told that bills were being prepared and
that these passengers would be charged the equivalent of the round-trip full

coach fare to India of $2,800.



With regard to the Pakistan trip, passengers were to be charged the prorated

cost of $6,477. For this trip, the Department arranged for the Department of

Interior to pay the commercial broker and collect fees from the non-Federal

passengers. As of October 7, 1994, Interior had not received the billing rate or

list of passengers from the Department of Energy. Despite this problem, Interior

had received payments from 18 of the approximately 41 private sector

passengers. At the time of our review, Department of Energy officials indicated

that notices requesting payment were being sent out for the Pakistan flight.



FOREIGN TRAVEL FOLLOW-UP



We are currently reviewing the Department’s actions in response to the

November 7, 1994, report. One suggestion in our report was that the

Department should establish accounts receivable for non-Federal passengers on

the India and Pakistan trips. Regarding the India trip, on March 1, 1995, the

Department established a total of $95, 200 in accounts receivable, comprised of

$74,200 due from 35 non-Federal persons and $21,000 due from Federal

agencies for nine Federal employees. As of March 4, 1996, $21,000 remains
uncollected, of which $8,400 is due from four non-Federal persons and $12,600

is due from four other Federal agencies.



Regarding the trip to Pakistan, on February 1, 1995, the Department established

$75,485.50 in accounts receivable due from 13 non-Federal persons. Of this

amount, $29,646 remains uncollected as of March 4, 1996.



For the India trip, Departmental officials advised us that the Department had

established accounts receivable valued at $11,200 that were subsequently

canceled. The cancellations occurred because four non-profit organizations

were erroneously billed for these representatives’ airfare costs. Departmental

officials advised that airfare costs for these persons were to have been paid by

the Department under its invitational travel procedures. We are in the process of

verifying whether the Department’s invitational travel procedures were correctly

implemented in these cases. For the Pakistan trip, $25,908 of the accounts

receivable was canceled because the travelers had already paid and, therefore,

the accounts receivable were in error.



Another suggestion in the report was that the Department should establish

procedures for acquisition of international air services. We found that verbal

instructions regarding international air services were discussed among

Departmental offices. Draft written procedures have been developed, but not
formalized. The Department continued to use chartered aircraft through the

South African trip of August 1995.



Additionally, the report suggested that the Department implement a full cost

recovery policy for non-Federal passengers. We found that for the international

trips subsequent to India, the Department did require, although it did not always

receive, advance payment of a pro rata share by the non-Federal passengers.

However, no formal procedures have been developed to assure that this process

is implemented fully.



We are in the process of reviewing 16 foreign trips of Secretary O’Leary.



SELECTION OF PARTICIPANTS


Our review indicates that, when selecting participants for these trips, the

Department considered various factors including whether potential participants

had pending business deals ready to be closed or signed during the visit, and

diversity of companies and people. The selection process included a review by

senior departmental officials, with recommendations going to the Secretary.

Final selection was either made or approved by the Secretary.
COST OF TRIPS

In attempting to determine the cost of each trip, we have had difficulty identifying

who actually traveled. We have been provided various documents containing

names of travelers, and are in the process of validating the identity of the

participants. We have examined travel authorizations, travel vouchers,

passengers lists, State Department cables, trip reports, and lists prepared by

DOE to arrive at a composite list of travelers as well as the cost of each trip.

Our examination includes a review of invoices supporting costs incurred by the

State Department and provide to DOE.



RESULTS CLAIMED



The Department has claimed $19.7 billion as the potential value of business

agreements resulting from foreign travel. The Department has further clarified

the potential value of the $19.7 billion, reporting that $4.3 billion represents

agreements that have made significant progress or reached financial closure.

The Department provided an estimate, to the Office of Management and Budget,

of 390,000 potential jobs created as a result of DOE’s foreign travel. The

Department used a factor of 20,000 jobs created per $1 billion in potential value

of business agreements to support the 390,000 jobs. While the Department of

Commerce has used a factor of 20,000 jobs created per $1 billion, the dollar
amount is based on exported manufactured goods. DOE applied the factor to

the potential value of business agreements.



The Department also has identified numerous non-monetary results of trade

missions as reported in trip reports, which included the signing of Cooperative

agreements, Government to Government agreements, and input into regulatory

structures and policies in foreign countries.



OMBUDSPERSON



At the Secretary’s request, we are also addressing questions relating to the

establishment and filling of the position of Department Ombudsperson, to

include the Department’s determination of the incumbent’s professional

qualifications, compensation level, and eligibility for per diem payments since

October 1993. We are reviewing whether there were any irregularities relating

to the Department’s establishment of a GM-15 position of Ombudsperson and

the subsequent appointment to that position of a person earning $86,589 under

an Intergovernmental Personnel Act Agreement. Additionally, we are reviewing

whether the payment of per diem to the Ombudsperson under the Agreement

was appropriate.
In establishing the position of Ombudsperson, the Secretary determined the

need for an individual to address workplace concerns raised by employees. We

have identified at least 14 Federal agencies that have established a position of

“Ombudsperson” to deal with workplace issues. We have been advised that

grade levels for those positions range from GS-14 to Senior Executive Service.



The Department used an Intergovernmental Personnel Act Agreement to fill the

position of Departmental Ombudsperson. The Agreement became effective on

October 4, 1993, and was for an initial period of one year. The Agreement was

extended for an additional year, and subsequently for two additional years. The

Agreement provides that the Department will pay salary, employer’s contribution

to health benefits and FICA, and travel and transportation expenses in

connection with the assignment. It also provides that the Department will pay

per diem at the rate of $35.00 per day. The initial Agreement was signed by the

Department’s Director of Personnel, the Newark Board of Education’s Assistant

Personnel Director, and the Ombudsperson.



In a January 5, 1996, demand letter, the Department requested the

Ombudsperson repay $21,208.70 that was characterized as an overpayment “in

per diem allowances during calendar years 1994 and 1995.” The demand letter

stated that “per diem payments were authorized by the agreement” to provide for

living expenses in a temporary residence in the Washington, D.C., area while
the Ombudsperson continued to maintain a permanent residence in New Jersey.

The demand letter indicated that in December 1993, the Ombudsperson

relocated her permanent residence to Maryland and that payments should have

ceased at that time. The Ombudsperson repaid the amount requested by the

Department on January 5, 1996. Subsequent to our discussions with the Office

of General Counsel regarding the incumbents’ eligibility for per diem payments

under the terms of the Agreement, the Office of General Counsel initiated a

review of the issue. We have been told by General Counsel staff that they are

looking at the appropriateness of the per diem payments and the subsequent

collection. We are awaiting the Office of General Counsel’s final opinion.



We are continuing our review of issues regarding the appointment of the

Departmental Ombudsperson.



I would be pleased to respond to any questions that you have at this time.
